No. 20-1218

In the Supreme Court of the United States
DEMETRIUS WILLIAM EDWARDS AND BRYANT ROYSTER, PETITIONERS
V.

SHERRY BURT, WARDEN AND KEVIN LINDSEY, WARDEN
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
CERTIFICATE OF COMPLIANCE
Attorney for Respondents Sherry Burt and Kevin Lindsey, hereby certifies that
the foregoing Brief in Opposition complies with the type-volume limitation of Supreme Court Rule 33.1(g)(ii), in that the word-processing system used to prepare the
brief indicates that the brief contains 6,889 words.
Respectfully submitted,
Dana Nessel
Michigan Attorney General
/s/ Fadwa A. Hammoud
Fadwa A. Hammoud
Solicitor General
Counsel of Record
P.O. Box 30212
Lansing, Michigan 48909
HammoudF1@michigan.gov
(517) 335-7628
Attorneys for Respondents

